Supreme Court, U.S.
FILED

AUG 3 0 2021
OFFICE OF THE CLERK

3111 tbe Opttprente Court of the ail-Uteri -.)tate5
October Term 2021
TYRONE CADE,
Petitioner,
v.
STATE OF TEXAS,
Respondent.
On Petition for Writ of Certiorari
To the Court of Criminal Appeals of Texas

PETITION FOR WRIT OF CERTIORARI

JOSEPH J. PERKOVICH
COUNSEL OF RECORD

Philips Black, Inc.
PO Box 4544
New York, NY 10163
212-400-1660 (tel.)
j.perkovich@phillipsblack.org

RECEIVED
SEP - 1 2021
OFFICE OF THE CLERK

SUPREME COURT, U.S.

CAPITAL CASE
QUESTION PRESENTED
Whether the Fourteenth Amendment's Due Process Clause requires a State to
provide capital habeas petitioners one opportunity to present Sixth Amendment in-.
effectiveness claims through competent counsel where state law promises those petitioners that they "shall be represented by competent counsel" in the only proceedings
in which they can raise ineffectiveness claims.

i

CORPORATE DISCLOSURE STATEMENT
Petitioner Tyrone Cade is a death-sentenced Texas inmate. He was the applicant in the Texas Court of Criminal Appeals. Respondent is the State of Texas.
LIST OF PROCEEDINGS
State v. Cade, No. F-11-33962-R (265th District Court of Dallas County, August
29, 2012) (conviction of capital murder and sentence of death at trial);
Cade v. State, 2015 WL 832421 (affirming conviction and sentence on direct
appeal);
Cade v. Texas, No. 15-6119, 136 S. Ct. 894 (2016) (denial of petition for certiorani);
Ex parte Cade, No. WR-83,274-01-3, 2017 WL 4803782 (Tex. Crim. App. Oct.
25, 2017) (denying state post-conviction relief);
Cade v. Lumpkin, No. 17-CV-3396 (N.D. Tex. Aug. 19, 2020) (District Court
granted stay and abeyance of federal habeas proceedings);
Ex parte Cade, WR-83,274-03 (Tex. Crim. App. Mar. 31, 2021) (dismissal of
subsequent state habeas writ application).

ii

TABLE OF CONTENTS
QUESTION PRESENTED
CORPORATE DISCLOSURE STATEMENT

ii

LIST OF PROCEEDINGS

ii

TABLE OF CONTENTS

iii

INDEX TO APPENDIX

iv

TABLE OF AUTHORITIES
PETITION FOR WRIT OF CERTIORARI

1

LOWER COURTS' OPINIONS AND ORDERS

1

BASIS FOR JURISDICTION

1

CONSTITUTIONAL & STATUTORY PROVISIONS INVOLVED

1

INTRODUCTION

2

STATEMENT OF THE CASE

6

I.

Background Facts

6

Trial Facts

6

Post-conviction Facts

10

II. Procedural History

15

REASONS FOR ALLOWING THE WRIT

18

The Lack of Guidance from this Court on a State's
Responsibilities and Immunities when it Saddles a Sixth
Amendment Claimant with Incompetent Counsel has Produced
Disparate Results

18

Tyrone Cade Had a Protected Liberty Interest in Competent,
Expeditious Habeas Representation

25

Mr. Cade's State Habeas Counsel were Neither Competent, Nor
Expeditious, Nor "Counsel" in any Meaningful Sense

30

Mr. Cade's Counsel were not Competent

30

Mr. Cade's Counsel did Not Investigate Expeditiously

33

Mr. Cade's Counsel Breached their Fiducidry Duties

34

111

IV. Review of this Case will Streamline the Federal Habeas Process,
if Any is Necessary, and the Process in Other Texas Cases and
Similar Jurisdictions

38

CONCLUSION

39

INDEX TO APPENDIX
APPENDIX

DESCRIPTION

PAGES

A

Texas Court of Criminal Appeals order, Ex parte Tyrone Cade v. State, WR-83,274-03 (Tex. Crim. App.
Mar. 31, 2021)

la-4a

B

United States District Court order denying motion for
reconsideration, Cade v. Lumpkin, No. 3:17-CV-3396
(N.D. Tex. Sept 23, 2020)

5a-6a

C

United States District Court memorandum opinion
and order granting stay and abeyance, Cade v. Lumpkin, No. 3:17-CV-3396 (N.D. Tex. Aug. 19, 2020)

7a-lla

D

Magistrate judge's recommendation regarding exhaustion stay/abeyance, Cade v. Lumpkin, No. 3:17-CV3396 (N.D. Tex. July 02, 2020)

12a-27a

E

Texas Court of Criminal Appeals order dismissing secand state habeas application, Ex parte Tyrone Cade v.
State, WR-83,274-02 (Tex. Crim. App. Oct. 25, 2017)

28a-34a

F

Texas Court of Criminal Appeals order denying initial
state habeas application, Ex parte Tyrone Cade v.
State, WR-83,274-01 (Tex. Crim. App. Oct. 25, 2017)

35a-36a

G

Texas trial court findings of fact and conclusions of
law on initial habeas application, Ex Parte Tyrone
Cade v. State, W11-33962-R(A) (Tex. 265th Dist. Apr.
10, 2017)

H

Texas Court of Criminal Appeals decision on direct ap- 141a-241a
peal, Cade v. State, No. AP-76,883 (Tex. Crim. App.
Feb. 25, 2015)

iv

37a-140a

TABLE OF AUTHORITIES
Cases
Ake v. Oklahoma,
470 U.S. 68 (1985)
Allison v. State,
914 N.W.2d 866 (Iowa 2018)
Bd. of Regents of State Colleges v. Roth,
408 U.S. 564 (1972)
Ex parte Bower,
No. WR-21005-02, 2012 WL 2133701 (Tex. Crim. App. June 13,
2012)
Braden v. 30th Judicial Circuit of Kentucky,
410 U.S. 484 (1973)
Bradley v. State,
277 S.W. 147 (Tex. Crim. App. 1925)
Broadnax v. Lumpkin,
987 F.3d 400 (5th Cir. 2021)
Brown v. McDaniel,
130 Nev. 565, 331 P.3d 867 (Nev. 2014)

Page(s)

19, 20, 21

3, 23

25, 27

22

5

13, 14

39

2, 23

Ex parte Brown,
No. WR-68,876-01, 2014 WL 5745499 (Tex. Crim. App. Nov. 5,
2014)

22

Cade v. Texas,
No. 15-6119, 136 S. Ct. 894 (2016)

16

Ex parte Cade,
2017 WL 4803782 (Tex. Crim. App. Oct. 25, 2017)

16

Ex parte Carty,
No. WR-61,055-02, 2015 WL 831586 (Tex. Crim. App. Feb. 25, 2015)

22

In re Clark,
5 Cal. 4th 750, 859 P.2d 729 (Cal. 1993)

3, 23

Close v. People,
180 P.3d 1015 (Colo. 2008)

3, 23

Cullen v. Pinholster,
563 U.S. 170 (2011);

4, 24, 38, 39

District Attorney's Office for Third Judicial Dist. v. Osborne,
557 U.S. 52 (2009)

3, 18

Ex parte Eldridge,
2005 WL 8154074 (Tex. Crim. App. Feb. 9, 2005)

28

Evitts v. Lucey,
469 U.S. 387 (1985)

21

Ford v. Wainwright,
477 U.S. 399 (1986)

20

Gallow. Escamilla v. Stephens,
749 F.3d 380 (5th Cir. 2014)

4

Gallow v. Cooper,
570 U.S. 933 (2013)

4, 24, 38, 39

Gofney v. Rabson,
56 S.W.3d 186 (Tex. App.--Houston 2001)
Ex parte Graves,
70 S.W.3d 103 (Tex. Crim. App. 2002)

36
3, 18, 24, 27

Green v. Davis,
479 F. Supp. 3d 442 (S.D. Tex. 2020)

26

Hinton v. Alabama,
571 U.S. 263 (2014)

33

Jackson v. State,
160 S.W.3d 568 (Tex. Crim. App. 2005)

14

Ex parte Jennings,
S.W.3d
, 2018 WL 2247764 (Tex. Crim. App. May 16, 2018)

28

Keeney v. Tamayo-Reyes,
504 U.S. 1 (1992)

4

Kentucky Dep't of Corr. v. Thompson,
490 U.S. 454 (1989)

25

Ex parte Kerr,
64 S.W.3d 414 (Tex. Crim. App. 2002)

3
vi

Kimmelman u. Morrison,
477 U.S. 365 (1985)

21

Kunkle v. Dretke,
352 F.3d 980 (5th Cir. 2003)

39

Ex parte Landor,
No. WR-81,579-02, 2020 WL 469979 (Tex. Crim. App. Jan. 29, 2020)

21

Ex parte Lave,
Nos. WR-44564-03, WR 44564-04, 2013 WL 1449749 (Tex. Crim.
App. April 10, 2013)

22

Maples v. Thomas,
565 U.S. 266 (2012)

35, 36, 37

Ex parte Marshall,
2014 WL 6462907 (Tex. Crim. App. Nov. 19, 2014)

28

Martinez v. Ryan,
566 U.S. 1 (2011)

19

Ex parte Martinez,
977 S.W.2d 589 (Tex. Crim. App. 1998)

27

Ex parte Medina,
31 S.W.3d 633 (Tex. Crim. App. 2011)

24

Ex parte Medina,
361 S.W.3d 633 (Tex. Crim. App. 2011)

26, 35

Mendenhall v. State,
77 S.W.3d 815 (Tex. Crim. App. 2002)

14

Menzies v. Galetka,
150 P.3d 480 (Utah 2006)

23

Ex parte Miles,
359 S.W.3d 647 (Tex. Crim. App. 2012)

22

Ex parte Mines,
26 S.W.3d 910 (Tex. Crim. App. 2000)

33

Ex parte Murphy,
No. WR-38,198-04, 2015 WL 5936938 (Tex. Crim. App. Oct. 12,
2015)

22

vii

Newland v. Comm'r of Correction,
331 Conn. 546, 206 A.3d 176 (Conn. 2019)

23

Ex parte Ochoa,
2009 WL 2525740 (Tex. Crim. App. Aug. 19, 2009)

28

Panetti v. Quarterman,
551 U.S. 930 (2007)

19, 20

Ex parte Reed,
No. WR-50,961-10, 2019 WL 6114891 (Tex. Crim. App. Nov. 15,
2019)

21

Rhines v. Weber,
544 U.S. 269 (2005)

15

Ries v. Quarterman,
522 F.3d 517 (5th Cir. 2008)

39

Rogers v. State,
105 S.W.3d 630 (Tex. Crim. App. 2003)

14

Rose v. Lundy,
459 U.S. 509 (1982)

5

Ex parte Settle,
No. AP-76591, 2011 WL 2586406 (Tex. Crim. App. June 29, 2011)
State v. Davis,
295 So.3d 396 (La. 2020)

22
3, 23

Strickland v. Washington,
466 U.S. 668 (1984)

18, 20, 23, 33

Ex parte Temple,
No. WR-78,545-02, 2016 WL 6903758 (Tex. Crim. App. Nov. 23,
2016)

21

Ex parte Tercero,
No. WR-62,592-04, 2015 WL 5157211 (Tex. Crim. App. Aug. 25,
2015)

22

Ex Parte Tiede,
448 S.W.3d 456 (Tex. Crim. App. 2014)

22

Town of Castle Rock, Colo. v. Gonzales,
545 U.S. 748 (2005)

25
viii

Trevino v. Thaler,
569 U.S. 413 (2013)

passim

Vasquez v. Hillery,
474 U.S. 254 (1986)

38, 39

Vitek v. Jones,
445 U.S. 480 (1980)

2

Ex parte Wyatt,
No. AP-76797, 2012 WL 1647004 (Tex. Crim. App. May 9, 2012)

22

Constitutional Provisions
U.S. CONST. amend. VI

passim
1, 2

U.S. CONST. amend. XIV
Statutes and Rules
18 U.S.C. § 3599

16

18 U.S.C. § 3599(a)

11

28 U.S.C. § 1257(a)

1
17

28 U.S.C. § 2254

4, 20, 24

28 U.S.C. § 2254(d)
Model Penal Code 2.01(b) (Am. L. Inst.)

14

N.C. Gen. Stat. § 15A-1419(c) (2020)

23

N.J. R. Ct. 3:22-4(b)(2)(c)

23

Tex. Code Crim. Proc. art. 11.07

28

Tex. Code Crim. Proc. art. 11.071

passim

Tex. Code Crim. Proc. art. 11.071, § 2(a)

10, 25, 26, 34

Tex. Code Crim. Proc. art. 11.071, § 2(b)

25

Tex. Code Crim. Proc. art. 11.071, § 2(c)

16, 25, 26, 34

Tex. Code Crim. Proc. art. 11.071, § 2(f)

25, 26

ix

Tex. Code Crim. Proc. art. 11.071, § 3(a)

21, 26, 29

Tex. Code Crim. Proc. art. 11.071, § 4(a)

21, 28

Tex. Code Crim. Proc. art. 11.071, § 4(e)

35

Tex. Code Crim. Proc. art. 11.071, § 4A
Tex. Code Crim. Proc. art. 11.071, § 5
Tex. Code Crim. Proc. art. 11.071, § 5(a)(1)

24, 35
17
21, 37

Tex. Code Crim. Proc. art. 11.071, § 5(f)

28

Tex. Code Crim. Proc. art. 11.071, § 6(b-1)(3)

26

Tex. Code Crim. Proc. art. 38.36(a)

14

Tex. Disciplinary R. Prof. Conduct 1.01, cmt. 1

30

Tex. Disciplinary R. Prof. Conduct 1.01, cmt. 4

32

Tex. Penal Code § 6.02

14

Tex. Penal Code § 19.03

14

Other Authorities
2 LaFave, Substantive Criminal Law § 9.4

14

ABA Guidelines for the Appointment and Performance of Counsel in
Death Penalty Cases, 31 Hofstra L. Rev. 913, 921 (2003)

31

Model Rules of Prof. Conduct r. 1.1, cmt. 4 (Am. Bar Ass'n)

29, 30

Restatement (Second) of Agency § 112 (1958)

36

Restatement (Second) of Agency § 387 (1958)

36, 37

State Bar of Texas, Guidelines and Standards for Texas Capital
Counsel (2006)

27, 28

Texas Defender Service, Lethal Indifference: The fatal combination of
incompetent attorneys and unaccountable courts in Texas death
penalty appeals, Ch. 3 (2002)

27

PETITION FOR WRIT OF CERTIORARI
Petitioner Tyrone Cade respectfully prays that a writ of certiorari issue to review the decision of the Court of Criminal Appeals of Texas dismissing his application
for a writ of habeas corpus.
LOWER COURTS' OPINIONS AND ORDERS
The March 31, 2021, order of the Texas Court of Criminal Appeals under review is unreported and appended hereto at App. la-4a.
BASIS FOR JURISDICTION
The Texas Court of Criminal Appeals issued its order on March 31, 2021. App.4a. This Court has jurisdiction under 28 U.S.C. § 1257(a).
CONSTITUTIONAL & STATUTORY PROVISIONS INVOLVED
The Sixth Amendment provides, in relevant part:
In all criminal prosecutions, the accused shall enjoy the right ... to have
compulsory process for obtaining witnesses in his favor, and to have the
assistance of counsel for his defense.
The Fourteenth Amendment provides, in relevant part:
No State shall make or enforce any law which shall abridge the privileges or immunities of citizens of the United States, nor shall any State
deprive any person of life, liberty, or property, without due process of
law . . . .

1

INTRODUCTION
Tyrone Cade seeks a modest remedy: When a State that channels Sixth
Amendment claims to collateral proceedings and, by explicit mandatory language,
gives a Sixth Amendment claimant the right to competent legal representation in
those collateral proceedings, the State must be willing to consider the merits of a
Sixth Amendment claim the first time it is presented by competent counsel. In its
briefing to this Court in Trevino v. Thaler, "Texas submit[ed] that its courts should
be permitted, in the first instance, to decide the merits" of the ineffective-assistanceof-trial-counsel claim that the petitioner's counsel forfeited in initial-review collateral
proceedings. 569 U.S. 413, 429 (2013). Mr. Cade similarly argues that his Sixth
Amendment ineffectiveness claims—forfeited due to the incompetence of his state
habeas counsel—should receive merits review from the Texas Court of Criminal Appeals ("TCCA"). But where Texas asserts a prudential interest, Mr. Cade also asserts
his right to a remedy from the deprivation of "liberty interests that are entitled to the
procedural protections of the Due Process Clause of the Fourteenth Amendment."
Vitek v. Jones, 445 U.S. 480, 488 (1980).
Texas and Mr. Cade are not alone in recognizing that the States maintain an
interest in having the first opportunity to decide the merits of Sixth Amendment
claims that were forfeited by ineffective or incompetent state habeas counsel. See,
e.g., Brown v. McDaniel, 130 Nev. 565, 575, 331 P.3d 867, 874 (Nev. 2014). Mr. Cade
is not alone in recognizing that States have an obligation to consider such claims.
Some state courts of last resort have held that fundamental fairness requires consid-

2

eration of second-in-time post-conviction applications that are the prisoner's first opportunity to present a Sixth Amendment ineffectiveness claim through competent
counsel.' But the TCCA has held that the "competency of prior habeas counsel is not
a cognizable issue" under the provision of Texas law that permits review of untimely
claims under a variety of other circumstances. Ex parte Graves, 70 S.W.3d 103, 105
(Tex. Crim. App. 2002).
While state courts have the final say on state law requirements, the Fourteenth Amendment's "[Due Process] Clause imposes procedural limitations on a
State's power to take away protected entitlements," including the state-created entitlement to collateral review procedures. District Attorney's Office for Third Judicial
Dist. v. Osborne, 557 U.S. 52, 67 (2009). Having recognized in Osborne that state postconviction procedures create constitutionally protected interests—even when those
proceedings are not enforcing the Constitution—this Court should apply that principle to the specific, but recurring circumstances presented here.
Mr. Cade asks for nothing more than what Texas committed to by statute: A
process ensuring "that a death row inmate does have one full and fair opportunity to
present his constitutional or jurisdictional claims in accordance with the procedures
of [Texas's capital habeas] statute." Ex parte Kerr, 64 S.W.3d 414, 419 (Tex. Crim.
App. 2002). A ruling in Mr. Cade's favor streamlines the review of his claims. State-

I See, e.g., State v. Davis, 295 So.3d 396, 398 (La. 2020) (Johnson, C.J., concurring);
Allison v. State, 914 N.W.2d 866, 883-84 (Iowa 2018); Close v. People, 180 P.3d 1015
(Colo. 2008); In re Clark, 5 Ca1.4th 750, 779, 859 P.2d 729, 748 (Cal. 1993).
3

court review of whether Mr. Cade had competent representation could obviate federal-court review of whether state habeas counsel were ineffective under Trevino.
State-court review of counsel's competence or merits review could eliminate from this
case issues being considered in Shinn v. Ramirez, No. 20-1009.
Mr. Cade has already asserted in the District Court that his claims are fundamentally different from those counsel presented in his initial state application, and
that the decision on the previous claims did not adjudicate the merits of the present
claims. 2nd Amend. Petn. (ECF No. 127) at 95-96; see Cullen v. Pinholster, 563 U.S.
170, 187 n.10, 187 n.11 (2011);2 id. at 214-16 (Sotomayor, J., dissenting). Mr. Cade
also has asserted that if Pinholster bars his new evidence—as the District Court said
before current counsel presented that evidence to the state court, App. 15a—then the
relitigation bar should be treated the same as a procedural bar. ECF No. 127 at 9697; see Gallow v. Cooper, 570 U.S. 933 (2013) (statement of Breyer, J., respecting
denial of certiorari); Keeney v. Tamayo-Reyes, 504 U.S. 1, 7-8 (1992) ("[I]t is ... irrational to distinguish between failing to properly assert a federal claim in state court
and failing in state court to properly develop such a claim").3 A ruling from this Court
requiring Texas to perform its self-imposed duty of providing one opportunity for merits review of Sixth Amendment claims presented through competent counsel could

The question whether, under § 2254(d) and Pinholster 563 U.S. 170 (2011), a federal habeas petitioner may present evidence of a prosecutor's racially discriminatory intent in support of a Batson claim where the evidence was not available to the
petitioner during state court Batson proceedings has been presented to this Court in
Broadnax v. Lumpkin, No. 21-267 (cert. pet'n. docketed Aug. 20, 2021).
2

3 The Fifth Circuit has rejected a version of the argument described in Gallow. Escamilla v. Stephens, 749 F.3d 380, 395 (5th Cir. 2014).

4

eliminate entirely—and would surely eliminate in part—the federal courts' need to
address these issues.
Mr. Cade's "principal interest, of course, is in obtaining speedy federal relief
on his claims." Rose v. Lundy, 459 U.S. 509, 520 (1982). Due to their inexperience,
lack of supervision, and the need to manage large caseloads under the time constraints of Texas's limitations period, Mr. Cade's state habeas counsel failed to recognize that Texas law gave him a complete defense to capital murder, to eligibility for
the death penalty, and a powerful mitigating circumstance, viz. unconsciousness at
the time of the killings. The exhaustion doctrine that compelled Mr. Cade's return to
the TCCA is "a judicially crafted instrument which reflects a careful balance between
important interests of federalism and the need to preserve the writ of habeas corpus
as a swift and imperative remedy in all cases of illegal restraint or confinement."
Braden v. 30th Judicial Circuit of Kentucky, 410 U.S. 484, 490 (1973) (internal quotation marks omitted). But where States shirk their constitutional duty not to take
away protected entitlements—here the right to competent representation—without
any procedural safeguards, the exhaustion doctrine sends cases on a meandering
course of delay and injustice that harms the interests of prisoners and society. This
Court should grant review here to put Texas capital habeas cases back on course.

5

STATEMENT OF THE CASE
I.

Background Facts

A. Trial Facts
In the early morning hours of March 27, 2011, Tyrone Cade's longtime partner,
Mischell Fuller jostled him in bed to stop him from tossing and turning beside her.
Mr. Cade then stabbed Ms. Fuller to death with a knife she kept under the mattress.
Ms. Fuller's adult daughter, Desaree Hoskins, came to her mother's aid, and Mr. Cade
then stabbed her to death.
Hours later, Mr. Cade went to the police station, called 9-1-1 from a pay phone
outside, and tearfully told the operator that he had killed two people. Police arrested
Mr. Cade and he confessed. He told police he had spent hours in the house with the
victims. He prepared to kill himself by dropping an electric leaf blower in the bathtub
he was in. Hab. App.4 2704, 2707 2933, 2939, 2942, 2956. He left the house and came
back repeatedly, thinking it had been a dream. Hab. App. 2714. He turned over pictures, as Ms. Fuller had done with pictures of him whenever she was angry at him.
Hab. App. 2705-06, 2926-28, 2930-32, 2939. Mr. Cade spoke obsessively about his
status as a sex offender and his fixation on what other people said he had done. Hab.
App. 2702-03, 2709-2710, 2713, 2929, 2931, 2940, 2944, 2955.

4 Citations to "Hab. App.," refer to the appendix to Mr. Cade's federal and state habeas petitions. "Hab. R. App." refers to the appendix to Mr. Cade's reply in federal
court, which also was submitted to the TCCA. "Suppl. Hab. App." and "2nd Suppl.
Hab. App." refer to the supplemental and second supplemental appendices Mr. Cade
filed in state and federal court. These appendices are consecutively paginated. Citations to "CR" and "RR" refer to the clerk's record of filings, and the reporter's record
of transcripts from the trial, respectively.

6

Prior to trial—indeed, prior to receiving an expert evaluation of Mr. Cade's
mental condition—defense counsel served notice that they would pursue a defense of
not guilty by reason of insanity ("NGRI"). CR 69. Then a psychologist defense counsel
retained to evaluate Mr. Cade for the NGRI defense reported that he did not find Mr.
Cade was insane at the time of the killings. Hab. App. 704. Then the psychiatrist
defense counsel retained to evaluate Mr. Cade for NGRI reported that she did not
find him insane at the time of the killings. Hab. App. 700-01. Then another psychologist reached the same conclusion. Hab. App. 703.
Defense counsel also retained a neuropsychologist who, among other things,
administered a Personality Assessment Inventory ("PAI") to Mr. Cade. The PAI indicated psychosis, depression, and suicidal thoughts. "Specifically he scores high on
three subscales of the PAI associated with psychosis including two subscales related
to paranoia and one related to thought disorder." Hab. App. 6429. But the neuropsychologist did not testify at trial.
Defense counsel retained another psychologist, Dr. Gilda Kessner, and, this
time, did not have her evaluate Mr. Cade. Instead, defense counsel described Mr.
Cade to the expert and posed hypothetical questions regarding whether the person
they described was sane. The expert said she could say the hypothetical person could
have been insane at the time of the offense, but she couldn't say that person was Mr.
Cade. 48 RR 12-13. That testimony was the centerpiece of the NGRI defense.
The other main witness for the defense was Gregory Scott, Mr. Cade's halfbrother. He testified that in his opinion, Mr. Cade had a severe mental defect, and he

7

did not know that what he was doing was wrong when he stabbed the victims. 46 RR
131-133. Mr. Scott conceded that he was not present at the offense, and he therefore
had no observations that would support his opinion about Mr. Cade's mental state at
that time; Mr. Scott also conceded that he had no training in psychology or mental
health. Id. at 101, 125. The trial court initially ruled Scott's opinion was not "rationally based on the perception of the witnesses and helpful to a clear understanding of
the witness testimony in determination of a fact in issue." Id. at 104-105. But the
State withdrew its objection, and Mr. Scott,was permitted to testify.
Dr. Kessner testified after Mr. Scott. Initially, the trial court excluded her testimony because it was unreliable, and she did not display enough familiarity with the
relevant facts. 48 RR 34. But, again, the State withdrew its objection.
Dr. Kessner testified that the hypothetical person described by defense counsel
would have been in a state of "abandonment rage" which she described as "an uncontrolled emotion" originating from traumatic experiences in early childhood that
causes a person to be unable to regulate his feelings and go into a rage when he senses
that the person he depends on is going to leave him.5 Dr. Kessner stated that she
formed her opinion from review of the report of the State's expert, Dr. Tim Proctor;

5 Dr. Kessner explained that during abandonment rage, a person experiences "intense autonomic arousal," and the rational portion of the brain ceases to function.
Dr. Kessner testified that someone with Mr. Cade's background and stressors
((
would have a high probability of having a mental defect or disease," and "because
of the intense emotional state and the autonomic arousal would not at the moment
of the violence know that their conduct was wrong." 48 RR 39-40, 47.

8

the State's enumerated aggravating factors; writings that Mr. Cade made immediately after the offense; relevant literature; and discussions with the defense attorneys. Dr. Kessner testified she could not actually conclude whether Mr. Cade was
insane because she had not evaluated him In addition, counsel offered two additional
experts—Dr. Daniel Altman and Dr. Michael Gottlieb—neither of whom had evaluated Mr. Cade or could offer any direct insight about him.6
The jury convicted Mr. Cade of capital murder.
In the trial's penalty phase, the State presented evidence of prior offenses, such
as a conviction for evading arrest, 49 RR 154-57, a conviction for driving with license
suspended, id. at 160, and an alleged 1993 incident involving Mr. Cade's cousin, who
was arrested and proceeded to allege an assault by Mr. Cade after the same cousin
had pistol-whipped Mr. Cade, id. at 127-28.
The defense published to the jury two previously admitted exhibits containing
Mr. Cade's education records. 50 RR 55: Counsel also played the deposition of Mr.
Cade's father, Jerry Cade Ford. Id. at 56 (In the liability phase, the jury heard excerpts from it). Mr. Cade's father, who had spent much of his adult life in and out of
mental hospitals, told the jury he didn't "know much about Tyrone." DX2A at 34.
Next, counsel called six witnesses in short succession, only three of whom knew Mr.

Psychologist Dr. Daniel Altman testified briefly regarding Mr. Cade's father's
mental illness and the heritability of schizophrenia but had no information specific
to Tyrone himself. 46 RR 134-44. Psychologist Dr. Michael Gottlieb testified in general about the possible side effects of childhood sexual abuse. But he had not interviewed Mr. Cade nor reviewed any of his records and acknowledged that he could
not identify a specific type or symptom of maltreatment or neglect that he may have
been able to identify through an evaluation. 46 RR 58-60; 47 RR 61-63.
6

9

Cade: a co-worker, 50 RR 60-67; a former teammate who'd played football with Mr.
Cade from age six through high school, 51 RR 13-22; Mr. Cade's maternal cousin, who
testified that she grew up with him and they "didn't have a really good childhood," 51
RR 32-33.
As part of their preparation for the NGRI defense, Mr. Cade's trial counsel had
him evaluated by a neuropsychologist prior to trial. 47 RR 42; 2 SHRR 227. Her testimony was excluded from the guilt-innocence phase, and counsel did not call her for
the penalty phase. See 47 RR 89-128 (proffer for appeal). In the proffer of her testimony for appellate purposes, trial counsel elicited that she found Mr. Cade had borderline intelligence, 47 RR 95 (full-scale IQ of 80), had sleep problems, was remorseful, depressed, and had symptoms of PTSD, id. at 95-97.
B. Post-conviction Facts
Texas law requires that any indigent death-sentenced person who wants counsel for collateral review "shall be represented by competent counsel." Tex. Code Crim.
Proc. art. 11.071, § 2(a). Mr. Cade did not waive that right, so the trial court duly
appointed the Office of Collateral Writs, now called the Office of Capital and Forensic
Writs ("OCFW"), the state agency created to provide competent capital post-conviction representation. According to the current director of OCFW, the attorneys assigned to Mr. Cade's case were only sixteen months out of law school, had no professional experience, and were not competent to undertake Mr. Cade's representation.
2nd Supp. Hab. App. 6920. Their lack of experience was exacerbated by overwhelming
caseloads, lack of supervision, and poor management. Id. at 6920-21.

10

The director of OCFW at the time Mr. Cade's state habeas application had to
be prepared restricted access to mental health experts for clients whose trial attorneys had the client evaluated. 2nd Supp. Hab. App. 6915-21; Hab. R. App. 6784; Hab.
R. App. 6788-6789; Hab. R. App. 6793. Although Mr. Cade's attorneys could see he
was mentally impaired, and requested professional evaluations, their supervising director denied those requests. Hab. R. App. 6784; Hab. R. App. 6794; Hab. R. App.
6788.
The first claim OCFW asserted on Mr. Cade's behalf was that trial counsel had
performed deficiently for presenting the NGRI defense, causing prejudice in Mr.
Cade's sentencing. OCFW asserted that giving notice of the defense before any expert
evaluations, then proceeding after evaluations produced no expert who had examined
Mr. Cade and found that he was insane, was objectively unreasonable. OCFW alleged
those actions "caused [trial counsel] to lose credibility with the jury and harmed their
presentation of mitigating evidence at the punishment phase," 1st St. Hab. Appl. 31,
an allegation that was like the trial defense because it was unsupported by proof.
OCFW also presented claims asserting that Mr. Cade's trial counsel had been
ineffective in their preparation for, and presentation of, the penalty phase defense.
Those claims were not supported by mental health evidence developed by OCFW, but
the agency presented a psychiatrist to testify at the hearing the state court held on
the penalty-phase claims. Id. at 44-76, 82-85.
The TCCA rejected Mr. Cade's claims, and Mr. Cade moved for the appointment of federal habeas counsel pursuant to 18 U.S.C. § 3599(a).

11

Federal habeas counsel investigated Mr. Cade's background, including his
health history, which included a heightened risk of developing schizophrenia due to
his father having the disease, lifelong sleep disorders beginning with nocturnal enuresis (or "bed wetting," an indicator for neurological problems identified infra) and
carrying on to multiple reported incidents in adulthood of nocturnal motor activity,
traumatic exposure to domestic violence—including when he was a child, his father,
commanded Tyrone to fetch a hammer, whereupon his father attempted to murder
his mother in front of Tyrone—roughly twelve years of playing tackle football beginning when Mr. Cade was about six years old, and myoclonic jerks, tiny, transient
muscle spasms that are indicative of neurological problems.
A psychiatrist, a psychologist specializing in trauma, and a neurologist examined Mr. Cade and reviewed his confession and the evidence of his behavior before,
during, and after the stabbings. They concluded that Mr. Cade has auditory hallucinations consistent with schizophrenia, has multiple symptoms of Post-Traumatic
Stress Disorder—including re-experiencing past traumatic events—a sleep disorder,
and likely brain damage (Chronic Traumatic Encephalopathy) from countless concussive and subconcussive head injuries. See Hab. App. 6419-27 (report of Dr. Behk
Bradley, Ph.D.); Hab. App. 6485, 6500-02, 6528-29 (Decl. Jeff Victoroff, M.D.); Hab.
App. 6559-60 (Decl. Bhushan S. Agharkar, M.D.)
Regarding the stabbings themselves, Mr. Cade's medical condition—in particular, his sleep disorder, PTSD, and long history of head trauma—and the circumstances of his actions, were consistent with a phenomenon called confusional arousal

12

with violence in which a sleeping person is aroused and suddenly attacks another,
often their intimate partner. Hab. App. 6514-15 (Cade's circumstances are "[e]xactly
consistent with case reports of murder of bed partners due to confusional arousal
dating back to the Renaissance, and 0 [e]xactly consistent with ... published characteristic traits observed across multiple cases of confusional arousal with violence").
Because the aroused person is not conscious, the phenomenon gives rise to a defense.
An early Texas case, for example, had facts similar to Mr. Cade's. The defendant, who was living with his lover (the decedent), learned of threats made by an "enemy," became "alarm[ed]" at the possibility of "a secret attack" while they slept, and
thus went to bed with a pistol under his pillow. Bradley v. State, 277 S.W. 147, 148
(Tex. Crim. App. 1925). After falling asleep, the defendant was "disturbed by a noise"
and before he was "reconciled" he "jumped up with [his] gun and commenced shooting." Ibid. His lover was dead. Ibid. The defendant testified that "I couldn't say I
killed her because I didn't know what I was doing." Ibid.
The TCCA found that "writings of medical and medico-legal authors contain
accounts of many well-authenticated cases in which homicides have been committed
while the perpetrator was either asleep or just being aroused from sleep, and . . . there
are very many cases in which the confused thoughts of awakening consciousness have
led to disastrous consequences." 277 S.W. at 149 (quoting Fain v. Commonwealth, 78
Ky. 183, 187 (1879)). The court held that a defendant was entitled to have the jury
instructed that if the defendant acted "while asleep, and not knowing what he was

13

doing, or if you have a reasonable doubt thereof," the jury should acquit the defendant. Id. at 148. The failure to give that instruction is prejudicial. Id. at 150.
With the findings of the neurologist, psychiatrist, and psychologist, Mr. Cade's
federal habeas counsel pled that his trial counsel were ineffective for failing to investigate and thereby develop the available unconsciousness defense instead of the
NGRI defense that their repeated efforts with experts established was moribund. In
contrast to the allegation that the unsupported NGRI defense prejudiced Mr. Cade in
the penalty phase, Mr. Cade's federal-court claim asserted he was prejudiced in the
guilt-innocence phase. Mr. Cade's unconsciousness and mental condition at the time
of the offense would have rebutted the State's evidence of specific intent—an essential
element of capital murder in Texas—and raised at least a reasonable doubt about
whether he possessed the mental state for capital murder under Tex. Penal Code §
19.03. See Tex. Penal Code § 6.02; Jackson v. State, 160 S.W.3d 568, 574 (Tex. Crim.
App. 2005); Mendenhall v. State, 77 S.W.3d 815, 818 (Tex. Crim. App. 2002) (one
"'who engages in what would otherwise be criminal conduct is not guilty of a crime if
he does so in a state of unconsciousness or semi-consciousness") (quoting W. LaFave
& A. Scott, Substantive Criminal Law § 4.9 (1986)); Tex. Code Crim. Proc. art.
38.36(a). In addition, this evidence could provide a defense that Mr. Cade did not act
voluntarily. Rogers v. State, 105 S.W.3d 630, 638 (Tex. Crim. App. 2003); accord
Model Penal Code 2.01(b); 2 LaFave, Substantive Criminal Law § 9.4.

14

Although the evidence was there for OCFW to find, OCFW filed Mr. Cade's
only litigation as of right regarding whether he received effective assistance of counsel without investigating whether he had a mental condition that could have supported a defense or mitigated the offenses. Hab. R. App. 6783; Hab. R. App. 67866790; Hab. R. App. 6793-6795; 2nd Supp. Hab. App. 6921 ("no investigation at all was
done into how Mr. Cade's impairments may have affected his behavior at the time of
the killings or served as mitigating circumstances."). Counsel were not even aware
that Texas law provided for a defense based on the facts. Hab. R. App. 6785; Hab. R.
App. 6795.
In federal court, Mr. Cade sought a stay under Rhines v. Weber, 544 U.S. 269
(2005), so that he could present the TCCA, inter alia, with claims of ineffective assistance of counsel at the liability and penalty phases of trial based on the evidence that
he was not conscious at the time of the offense. The district court granted a stay,
instructing Mr. Cade to present all of his federally pleaded claims to the TCCA.
In his subsequent application, Mr. Cade asserted that OCFW had not provided
competent representation or investigated his case expeditiously, as Texas law required. He argued that the Due Process Clause gave him a right to merits review of
his claims because state law gave him a liberty interest in competent, expeditious
post-conviction representation, and OCFW had arbitrarily denied him those services
during his initial state-habeas proceedings.
II.

Procedural History

Mr. Cade pleaded not guilty to a charge of capital multiple murder entered in
the 265th District Court of Dallas County, Texas, in Cause No. F-11-33962-R. After
15

a jury trial at which Mr. Cade did not testify, the jury found him guilty on August 24,
2012. A penalty hearing was held before the same jury and, on August 29, 2012, the
jury sentenced Mr. Cade to death.
Mr. Cade had an automatic appeal to the TCCA in Cause No. AP-76,883. The
TCCA affirmed on February 25, 2015. Cade v. State, 2015 WL 832421. Mr. Cade's
timely petition for writ of certiorari was denied on January 19, 2016. Cade v. Texas,
No. 15-6119, 136 S. Ct. 894 (2016).
On September 12, 2012, pursuant to Tex. Code Crim. Proc. art. 11.071, § 2(c),
the trial court appointed the Office of Capital Writs (now, OCFW). On September 9,
2014, Mr. Cade timely filed an application for a writ of habeas corpus in the TCCA,
which was given Cause No. WR-83,274.
On February 25, 2015, OCFW filed a motion to amend Mr. Cade's application,
then withdrew the motion on March 11, 2015, before filing a subsequent application
on April 20, 2015.
After an evidentiary hearing, the trial court adopted verbatim the State's proposed findings of fact and conclusions of law supporting denial, which were later
adopted, with minor alterations, by the TCCA in an order that also dismissed the
subsequent application. Ex parte Cade, 2017 WL 4803782 (Tex. Crim. App. Oct. 25,
2017).
On December 21, 2017, the District Court for the Northern District of Texas
appointed counsel for Mr. Cade pursuant to 18 U.S.C. § 3599. On October 25, 2018,

16

Mr. Cade filed a petition for writ of habeas corpus pursuant to 28 U.S.C. § 2254. Mr.
Cade amended his federal petition on March 28, 2019.
Before the conclusion of the pleading phase, on December 18, 2019, Mr. Cade
moved the district court for a stay and abatement of federal proceedings so that he
could exhaust state court remedies for five claims. Texas opposed the motion.
On July 2, 2020, the magistrate judge recommended the district judge order
Mr. Cade to file in the TCCA all claims pending in the amended federal petition,
regardless of whether they were unexhausted. App. 25a-26a.
On August 19, 2020, over Mr. Cade's objection to the magistrate judge's recommendation that Mr. Cade be ordered to refile exhausted claims, the district judge
adopted the magistrate judge's recommendation and ordered Mr. Cade to file in state
court all claims he wanted the federal court to consider. App. 10a.
On October 19, 2020, Mr. Cade filed a subsequent application for a writ of habeas corpus which the trial court transferred to the TCCA. On March 31, 2021, the
TCCA dismissed the application based on Tex. Code Crim. Proc. art. 11.071, § 5. App.
4a.

17

REASONS FOR ALLOWING THE WRIT
I.

The Lack of Guidance from this Court on a State's Responsibilities and Immunities when it Saddles a Sixth
Amendment Claimant with Incompetent Counsel has
Produced Disparate Results

At least where no constitutional right is at stake, a State's postconviction review procedures violate a prisoner's right to due process "only if [the State's procedures] are fundamentally inadequate to vindicate the substantive rights provided."
Osborne, 557 U.S. at 69. Texas easily meets this test by providing a substantive right
to competent, expeditious representation in capital collateral proceedings, permitting
a death-sentenced person to be heard only through his appointed counsel, imposing
onerous time and substantive pleading requirements, precluding amendment or supplementation of an initial application, then holding that the incompetence of appointed counsel is "not a cognizable issue" when applying the State's law for reviewing untimely Sixth Amendment claims. Graves, 70 S.W.3d at 105.
Osborne involved a non-capital prisoner's access to scientific testing that the
prisoner hoped would support relief based on newly discovered evidence. 557 U.S. at
73-74. In Strickland v. Washington, 466 U.S. 668 (1984), this Court rejected a proposal that prisoners who raise Sixth Amendment ineffectiveness claims should have
to satisfy the "cause and prejudice" test for unpreserved claims. 466 U.S. at 697. Because "[a]n ineffectiveness claim ... is an attack on the fundamental fairness of the
proceeding whose result is challenged," this Court held that "[t]he principles governing ineffectiveness claims should apply in federal collateral proceedings as they do on
direct appeal or in motions for a new trial." Ibid.
18

In Martinez v. Ryan, 566 U.S. 1 (2011), this Court reaffirmed the central importance of enforcing the Sixth Amendment right to effective assistance in collateral
proceedings, when it modified the cause/prejudice doctrine primarily because "the
`right to the effective assistance of counsel at trial is a bedrock principle in our justice
system.... Indeed, the right to counsel is the foundation for our adversary system."'
Trevino, 569 U.S. at 422 (quoting Martinez, 566 U.S. at 12).
Carrying forward Strickland's recognition that ineffectiveness claims should
be entitled to the same process any claim would receive in a motion for new trial or
on direct appeal, Mr. Cade also prevails under the three-part weighing test for proceedings involving constitutional rights. Ake v. Oklahoma, 470 U.S. 68, 77 (1985).
Concerning "the private interest that will be affected by the action," or, in this case,
inaction "of the State," ibid., this Court has said that "the 'right to the effective assistance of counsel at trial is a bedrock principle in our justice system... Indeed, the right
to counsel is the foundation for our adversary system."' Trevino, 569 U.S. at 422 (quoting Martinez, 561 U.S. at 12 ("A prisoner's inability to present a claim of trial error is
of particular concern when the claim is one of ineffective assistance of counsel.").
That interest, and the process due to protect it, stands in stark contrast with
a death-sentenced person's interest in raising a claim he is incompetent to be executed. By its very nature, such a claim arises only in a procedural posture like Mr.
Cade's, i.e., only after initial-review collateral proceedings. Panetti v. Quarterman,
551 U.S. 930, 946 (2007). An incompetence-for-execution claim asks "not whether, but
when, [the petitioner's] execution may take place. This question is important, but it

19

is not comparable to the antecedent question whether petitioner should be executed
at all." Ford v. Wainwright, 477 U.S. 399, 425 (1986) (Powell, J., concurring) (emphasis in original).
In contrast to a claim under Ford, "[a]n ineffectiveness claim ... is an attack on
the fundamental fairness of the proceeding whose result is challenged." Strickland,
466 U.S. at 697. Mr. Cade's claims ask whether he should have been convicted, found
to be a future danger, or selected for a death sentence; more precisely, whether the
process leading to those determinations comported with fundamental fairness. "Since
fundamental fairness is the central concern of the writ of habeas corpus," ibid., Mr.
Cade's interest here is entitled to greater protection than the interest at stake in
Panetti. And yet, in Mr. Cade's initial-review collateral proceeding, incompetent state
counsel denied him the very same thing Mr. Panetti was unconstitutionally denied
in his post-warrant proceeding, viz. expert assistance necessary to substantiate his
substantive constitutional claims. See Panetti, 551 U.S. at 950.
With regard to the State's interests, Ake, 470 U.S. at 77, as Texas itself asserted in Trevino, the State has an interest in conducting the first merits review of
Mr. Cade's competently developed claims. Suppose Mr. Cade receives merits review
in state court. In that case, Texas can assert the TCCA's decision should receive deference under 28 U.S.C. § 2254(d), rather than the de novo review Mr. Cade will receive in federal court under Trevino.
Texas has already accepted the burdens of providing competent counsel, and
subsequent-review collateral proceedings. This Court has long held that when due

20

process requires a State to provide representation, "the State bear[s] the risk of constitutionally deficient assistance of counsel." Kimmelman v. Morrison, 477 U.S. 365,
379 (1985); see also Euitts v. Lucey, 469 U.S. 387, 396 (1985) ("The constitutional
mandate is addressed to the action of the State in obtaining a criminal conviction
through a procedure that fails to meet the standards of due process of law.").
Texas also recognizes the probable value of providing counsel in capital collateral proceedings. See Ake, 470 U.S. at 77. Texas channels Sixth Amendment ineffectiveness claims to collateral review by making it "virtually impossible" to litigate the
issue on direct appeal. Trevino, 569 U.S. at 423. Texas places a time limit on that
review. Tex. Code Crim. Proc. art. 11.071, § 4(a).
Texas statutes implicitly recognize that, due to the extra-record bases for habeas claims, complying with that time limit requires the immediate appointment of
competent counsels who must "investigate expeditiously." Id. § 3(a). But when the
state agency charged with representing death-sentenced prisoners like Mr. Cade fails
to provide competent counsel, the TCCA holds that failure is "not cognizable" under
the provision of Texas law that permits review of untimely claims under a variety of
other circumstances, Tex. Code Crim. Proc. art. 11.071, § 5(a)(1), such as when the
State suppressed evidence.? That bait-and-switch is fundamentally unfair, and this
Court's due process cases do not allow it to continue.

7 See, e.g., Ex parte Landor, No. WR-81,579-02, 2020 WL 469979, (Tex. Crim. App.
Jan. 29, 2020) (unpublished) (authorizing successive proceedings on claim that
State withheld Brady evidence); Ex parte Reed, No. WR-50,961-10, 2019 WL
6114891, (Tex. Crim. App. Nov. 15, 2019) (unpublished) (authorizing successive proceedings on Brady, false testimony, and actual innocence claims); Ex parte Temple,

21

Correcting the TCCA's error regarding the Due Process Clause's requirements
when States fail to deliver on entitlements will have two desirable effects. First, it
will answer an open legal question that has produced disparate results in different
States. Some States have found procedural mechanisms for reaching the merits of

No. WR-78,545-02, 2016 WL 6903758 (Tex. Crim. App. Nov. 23, 2016) (unpublished)
(granting relief on basis that State's failure to timely disclose police reports to defendant constituted Brady violation); Ex parte Murphy, No. WR-38,198-04, 2015 WL
5936938 (Tex. Crim. App. Oct. 12, 2015) (unpublished) (staying applicant's execution to consider authorization of successive proceedings on Brady claim that State
failed to disclose threats of prosecution and promises of leniency to its two main witnesses and on claim that State unknowingly presented false testimony through one
witness); Ex parte Tercero, No. WR-62,592-04, 2015 WL 5157211 (Tex. Crim. App.
Aug. 25, 2015) (unpublished) (authorizing successive proceedings on claim that
State presented false testimony); Ex parte Carty, No. WR-61,055-02, 2015 WL
831586 (Tex. Crim. App. Feb. 25, 2015) (unpublished) (authorizing successive proceedings on claim that State coerced witnesses into providing false testimony and
that State did not disclose deal with co-defendant); Ex parte Brown, No. WR-68,87601, 2014 WL 5745499, Tex. Crim. App. Nov. 5, 2014) (unpublished) (vacating applicant's conviction and sentence on basis that the State withheld Brady evidence); Ex
Parte Tiede, 448 S.W.3d 456 (Mem.) (Tex. Crim. App. 2014) (granting applicant relief on basis of the State's use of false evidence); Ex parte Lave, Nos. WR-44564-03,
WR 44564-04, 2013 WL 1449749 (Tex. Crim. App. April 10, 2013) (unpublished) (authorizing successive proceedings on claim that State presented false expert testimony); Ex parte Bower, No. WR-21005-02, 2012 WL 2133701 (Tex. Crim. App. June
13, 2012) (unpublished) (authorizing subsequent habeas application following forensic testing on Brady claim); Ex parte Wyatt, No. AP-76797, 2012 WL 1647004 (Tex.
Crim. App. May 9, 2012) (unpublished) (authorizing successive petition and granting relief on four items of exculpatory evidence suppressed by the State that would
have supported the defense's theory of misidentification); Ex parte Miles, 359
S.W.3d 647 (Tex. Crim. App. 2012) (authorizing subsequent petition and granting
relief on Brady claim that State failed to produce police reports which identified
other potential suspects); Ex parte Settle, No. AP-76591, 2011 WL 2586406 (Tex.
Crim. App. June 29, 2011) (unpublished) (authorizing successive petition and granting relief on Brady claim).
22

forfeited or untimely Strickland claims,8 or held that due process or fundamental
fairness require a remedy for forfeiture-by-incompetent-counsel cases.9
Some state legislatures have expressly provided the remedy Mr. Cade seeks.
E.g., N.J. R. Ct. 3:22-4(b)(2)(c). Others have expressly barred a remedy for ineffective
representation on collateral review. E.g., N.C. Gen. Stat. 15A-1419(c). In other States
like the Brown court in Nevada, and the TCCA, courts have held that the States'

E.g., Allison v. State, 914 N.W.2d 866, 891 (Iowa 2018) ("filing of the second PCR
petition relates back to the timing of the filing of the original PCR petition"); Close
v. People, 180 P.3d 1015 (Colo. 2008) (district court must hold hearing on whether
IAC of postconviction counsel excused filing of a successive motion filed outside the
three-year statute of limitations for filing the motion); In re Clark, 5 Ca1.4th 750,
779, 859 P.2d 729, 748 (Cal. 1993) ("In limited circumstances, consideration may be
given to a claim that prior habeas corpus counsel did not competently represent a
petitioner.").
8

9 E.g., Clark, 5 Ca1.4th at 780, 859 P.2d at 748 ("Regardless of whether a constitutional right to counsel exists, a petitioner who is represented by counsel when a petition for writ of habeas corpus is filed has a right to assume that counsel is competent and is presenting all potentially meritorious claims."); Close, 180 P.3d at 1019
("[T]he overriding concern [is] that defendants have a meaningful opportunity to
challenge their convictions as required by due process."); Newland v. Comm'r of
Correction, 331 Conn. 546, 560, 206 A.3d 176, 184 (2019) ("[T]he protections afforded by the procedural default rule must be construed in light of the fundamental
role of the right to counsel in ensuring a fair trial and the importance of providing
habeas relief from the unfairness that results from the complete deprivation of
counsel"); State v. Davis, 295 So.3d 396, 398 (La. 2020) (Johnson, C.J., concurring)
("To find that retained or appointed counsel is not obligated to provide effective assistance because state post-conviction proceedings are somehow beyond the reach of
the Sixth Amendment would offend basic and fundamental principles of justice.
This is particularly so when counsel's ineffectiveness in post-conviction proceedings
means that trial counsel's performance will never be reviewed. The poor performances of two attorneys do not cancel each other out. Rather they magnify the potential for injustice."); Menzies v. Galetka, 150 P.3d 480, 508 (Utah 2006) (Utah Supreme Court finding appellate counsel's gross negligence sufficient to warrant Rule
60(b) relief because "when an attorney is grossly negligent ... the judicial system
loses credibility as well as the appearance of fairness, if the result is that an innocent party is forced to suffer drastic consequences.") (internal citations omitted).

23

collateral review statute does not permit review under those circumstances. Graves,
70 S.W.3d at 105 ("competency of prior habeas counsel is not a cognizable issue on
habeas corpus review").10
Second, requiring that States who promise competent representation to Sixth
Amendment claimants actually deliver that representation in a proceeding that
reaches the merits of Sixth Amendment claims will reduce burdens on federal habeas
courts. When a state court must reach the merits of a Sixth Amendment claim the
first time it is presented by competent counsel, federal courts will not have to contend
with complex issues like those being considered in Shinn v. Ramirez, No. 20-1009. In
affected States, the need for federal habeas courts to address the still unresolved issue of when the relitigation bar of 28 U.S.C. § 2254(d) does not apply because a claim
has been fundamentally altered. Cullen v. Pinholster, 563 U.S. 170, 187 n.10, 187
n.11 (2011); id. at 214-16 (Sotomayor, J., dissenting), and whether to treat the relitigation bar differently than other functionally equivalent bars to de novo federal review, see Gallow v. Cooper, 570 U.S. 933 (2013) (statement of Breyer, J., respecting
denial of certiorari). The latter two issues have been raised in Mr. Cade's case. See
App. 15a.

Texas provides a limited remedy if state habeas counsel files nothing cognizable
within the statutory time limit. Tex. Code Crim. Proc. art. 11.071, § 4A; Ex parte
Medina, 31 S.W.3d 633, 641 (Tex. Crim. App. 2011). But that remedy is unavailable
if the appointed attorney files anything cognizable. See Ex parte Graves, 70 S.W.3d
103, 120 (Price, J., dissenting) (observing that under the rule announced by the majority, "a habeas applicant has no recourse for the appointment of less-than-competent counsel, unless counsel fails to file an application or files a document that does
not constitute an application.").
10

24

II.

Tyrone Cade Had a Protected Liberty Interest in Competent, Expeditious Habeas Representation

Under this Court's cases, state laws create protected liberty interests when two
conditions are met. First, the state statute must "contain 'explicit mandatory language,"' such that if the law's "substantive predicates are present, a particular outcome must follow." Kentucky Dep't of Corr. v. Thompson, 490 U.S. 454, 463 (1989); see
also Town of Castle Rock, Colo. v. Gonzales, 545 U.S. 748, 756 (2005) ("Our cases
recognize that a benefit is not a protected entitlement if government officials may
grant or deny it in their discretion."). Second, to have a protected interest "in a benefit, a person clearly must have more than an abstract need or desire for it." Bd. of
Regents of State Colleges v. Roth, 408 U.S. 564, 577 (1972). Texas law plainly satisfies
both conditions.
Texas law explicitly requires that a death-sentenced person pursuing habeas
corpus review "shall be represented by competent counsel." Tex. Code Crim. Proc. art.
11.071, § 2(a). Unless the defendant opts out of the law's default requirement of counsel, ibid., Texas law requires the trial court to appoint capital habeas counsel upon
finding "the defendant is indigent." Id. § 2(b). If those two conditions are satisfied—
the defendant is indigent and did not affirmatively elect not to have counsel—the
trial court has no discretion, it "shall appoint the office of capital and forensic writs,"
the attorneys who represented Mr. Cade, "or other competent counsel." Id. § 2(c); id.
§ 2(f). The statute is so emphatic about requiring "competent counsel" that it repeats

25

the adjectival phrase three times in the context of initial-review collateral proceedings, id. §§ 2(a), 2(c), and 2(f), and again in the context of court-authorized proceedings on subsequent applications, id. § 6(b-1)(3).
Texas law emphasizes the mandatory and urgent need for competent representation in capital collateral proceedings by explicitly requiring speed by those to whom
the statute provides instructions. The trial court "shall" determine the defendant's
indigency and desire for counsel "immediately after judgment is entered." Id. § 2(a).
Texas law then instructs capital collateral counsel that "[o]n appointment, counsel
shall investigate expeditiously, before and after the appellate record is filed in the
court of criminal appeals, the factual and legal grounds for the filing of an application
for a writ of habeas corpus." Id. § 3(a).
Once the trial court appoints counsel, the rights of a death-sentenced person
like Mr. Cade are entirely in the lawyer's hands. Texas law proscribes "hybrid representation under Article 11.071" such that a Texas habeas court will refuse to consider
pro se filings by a death-sentenced person even when his appointed counsel is violating his fiduciary and statutory duties. Ex parte Medina, 361 S.W.3d 633, 637 (Tex.
Crim. App. 2011). Death-sentenced habeas applicants have tried to complain that
their lawyers violated essential elements of the attorney-client relationship such as
competence and communication. But Texas courts refused to hear their complaints.
See, e.g., Green v. Davis, 479 F. Supp. 3d 442, 452 (S.D. Tex. 2020) (describing how
habeas petitioner "attempted multiple times to file his own habeas application pro se,
but the trial court dismissed these attempts on the basis that Green was already

26

represented" by attorney who refused to communicate with him as "[s]ix years
passed"); see also Texas Defender Service, Lethal Indifference: The fatal combination

of incompetent attorneys and unaccountable courts in Texas death penalty appeals,
Ch. 3 at 26 (describing rejection of one inmate's request for relief from incompetent
counsel);11 id. at 30 (describing intervention in Graves); id. at 32-33 (describing nonresponse to pleas about attorney incompetence in Ex parte Martinez, 977 S.W.2d 589
(Tex. Crim. App. 1998)). That is the logical, but unconstitutional, implication of the
TCCA's holding that § 2(a) of Article 11.071 entitles death-sentenced habeas applicants to the appointment but not the performance of competent counsel. Graves, 70
S.W.3d at 114.
Just as interests protected by the Due Process Clause are created by state law,
"their dimensions are defined by existing rules or understandings that stem from an
independent source such as state law." Roth, 408 U.S. at 577. Texas law justifies and
explains Mr. Cade's liberty interest in competent, expeditious representation on collateral review. See Trevino, 569 U.S. at 425-27 (drawing on how the Texas bench and
bar understood the requirements for developing and pleading a prima facie case of
ineffective assistance citing such standards as the Texas Bar's Guidelines and Stand-

ards for Texas Capital Counsel, 69 Tex. B.J. 966 (2006)). "The structure and design
of the Texas [legal] system in actual operation ... make it virtually impossible for an

11 Available

at https://www.texasdefender.org/wp-content/uploads/2019/12/LethalIndiff web.pdf.
27

ineffective assistance claim to be presented on direct review." Trevino, 569 U.S. at
417 (internal quotation marks omitted).
In Trevino this Court found the timing of direct appeal proceedings made it
virtually impossible to plead a Sixth Amendment claim on appeal in Texas. 569 U.S.
at 424-25. Unlike non-capital cases, in which there is no statutory time limit on seeking habeas review of a felony conviction, see Tex. Code Crim. Proc. art. 11.07, Texas
law requires that collateral review commence with the automatic appeal of a death
judgment. Tex. Code Crim. Proc. art. 11.071, § 4(a). Sixth Amendment claims must
be filed by "the 180th day after the date the convicting court appoints counsel ... or
not later than the 45th day after the date the state's original brief is filed on direct
appeal ... whichever date is later." Ibid.
That initial application must contain all claims. Texas law expressly provides
that "[i]f an amended or supplemental application is not filed" within the time limit,
"the court shall treat the application as" subject to strict statutory limits on second
or successive applications. Tex. Code Crim. P. art. 11.071, § 5(f). The TCCA strictly
construes that provision.12
The Texas Guidelines and Standards this Court cited in Trevino, 569 U.S. at
426, explain that habeas counsel's most basic duty is "to undertake the comprehensive extra-record investigation that habeas corpus demands." Guideline 12.2(B)(1)(a).

12 See, e.g., Exparte Jennings,
S.W.3d
, 2018 WL 2247764 at *1 (Tex. Crim.
App. May 16, 2018); Exparte Eldridge, 2005 WL 8154074 at *1 (Tex. Crim. App.
Feb. 9, 2005); see Exparte Marshall, 2014 WL 6462907 (Tex. Crim. App. Nov. 19,
2014); Exparte Ochoa, 2009 WL 2525740 (Tex. Crim. App. Aug. 19, 2009).

28

They caution that counsel must "assume that any meritorious issue not contained in
the first state application for writ of habeas corpus will be waived or procedurally
defaulted." Guideline 12.2(B)(1)(e). Thus, the Guidelines and Standards echo the
command of Article 11.071, § 3(a) when they press habeas counsel to "promptly obtain
the investigative resources necessary," Guideline 12.2(B)(3)(a), and lay out a detailed
list of areas that could require investigation, Guidelines 12.2(B)(3)-(5).
In sum, Texas procedural rules governing the presentation of Sixth Amendment claims make the statutory requirements of competence and expeditiousness essential for a death-sentenced inmate to meet the State's timing and pleading requirements. It is axiomatic that lawyers with less competence in an area of law will need
more time to accomplish tasks, and the more complex the area of law, the more time
it takes to acquire competence. See Model Rules of Prof. Conduct r. 1.1, cmt. 4 (Am.
Bar Ass'n) ("A lawyer may accept representation where the requisite level of competence can be achieved by reasonable preparation. This applies as well to a lawyer who
is appointed as counsel for an unrepresented person.").
Although Texas law explicitly required that Mr. Cade "shall be represented by
competent counsel" and explicitly instructed his counsel "[o]n appointment" to "investigate expeditiously," counsel met neither requirement, and the TCCA deemed those
failures non-cognizable under the same statute that imposed them.

29

III. Mr. Cade's State Habeas Counsel were Neither Competent, Nor Expeditious, Nor "Counsel" in any Meaningful
Sense
A. Mr. Cade's Counsel were not Competent
Texas law defines competence for representation based on the specific "area of
the law" in which the lawyer will be working. Tex. Disciplinary R. Prof. Conduct 1.01,
cmt. 1.
In determining whether a matter is beyond a lawyer's competence, relevant factors include the relative complexity and specialized nature of
the matter, the lawyer's general experience in the field in question, the
preparation and study the lawyer will be able to give the matter, and
whether it is feasible either to refer the matter to or associate a lawyer
of established competence in the field in question. The required attention and preparation are determined in part by what is at stake; major
litigation and complex transactions ordinarily require more elaborate
treatment than matters of lesser consequences.
Id., cmt. 2.
The State Bar of Texas demonstrated its understanding that capital litigation
is exceptionally complex and requires specialized knowledge, skill, and training when
it adopted Guidelines and Standards for Texas Capital Counsel in 2006. The Texas
Bar's understanding is shared by the American Bar Association, which first adopted
Guidelines for the Appointment and Performance of Counsel in Death Penalty Cases
in 1989 and revised them in 2003. Both the Texas and ABA guidelines state their
purpose is "to ensure high quality legal representation" for anyone facing the death
penalty, not as a lofty aspiration, but because that is what competence requires in
that area of practice. Texas Guideline 1.1.A. The ABA commentary explains that "to
call for 'high quality legal representation' [is] to emphasize that, because of the extraordinary complexity and demands of capital cases, a significantly greater degree
30

of skill and experience on the part of defense counsel is required than in a noncapital
case." ABA Guideline 1.1, in ABA Guidelines for the Appointment and Performance of
Counsel in Death Penalty Cases, Revised ed. 2003, 31 Hofstra L. Rev. 913, 921 (2003).
Texas Guideline 4.1.B contains a long list of competencies.
From the start, Mr. Cade was not represented by competent counsel as those
terms are defined in Texas law and practice. Jeremy Schepers and Joanne Heisey
were directly responsible for investigating Mr. Cade's case during initial-review collateral proceedings under Article 11.071. Each had just graduated from law school.
Hab. R. App. 6782 (Schepers); Hab. R. App. 6792 (Heisey). Neither had any experience as attorneys. Ibid.
According to the current director of OCFW, when Mr. Cade's lawyers filed his
initial application, they were only sixteen months out of law school, had no professional experience, and were not competent to undertake Mr. Cade's representation.
2nd Supp. Hab. App. 6920. Their lack of experience was exacerbated by overwhelming
caseloads, lack of supervision, and poor management. Id. at 6920-21.
Mr. Schepers and Ms. Heisey worked under the "supervision" of OCFW director Brad Levenson.13 Hab. R. App. 6783. However, they describe that supervision as
"negligible." Id. at 6973. As Mr. Schepers states, he "was responsible for all aspects
of the litigation in the cases I was assigned to including managing the work of pre-

Mr. Levenson himself was new to Texas criminal and habeas practice, having
come from Los Angeles, California.

13

31

paring the petition, hands-on investigation, hiring and working with experts, directing the work of the OCFW investigators, drafting, editing, and filing pleadings, briefs,
and other papers ...." Id. at 6783. Heisey shared that responsibility. Hab. R. App.
6792. They "were not paired with a more experienced attorney." Ibid.
While a lawyer may undertake representation for which she is not competent
if the circumstances allow the lawyer to "become more competent in regard to relevant legal knowledge by additional study and investigation," Tex. Disciplinary R.
Prof. Conduct 1.01, cmt. 4, the circumstances at OCFW did not allow Schepers and
Heisey to develop the necessary competencies. They received neither formal or otherwise meaningful training or supervision from OCFW. Hab. App. 6782 (Schepers);
Hab. R. App. 6793 (Heisey). And their caseloads made it impossible to spend sufficient
time on study and investigation. Schepers carried six to fifteen cases while working
on Mr. Cade's case. Hab. R. App. 6783. Heisey carried "a total of seven highly active
state post-conviction cases" while also preparing Mr. Cade's application. Hab. R. App.
6972.
Texas rules entitled Mr. Cade to know that his counsel would not have the time
or opportunity to acquire the training, skills, and knowledge necessary to competently
represent him before his application came due under § 4 of Article 11.071. See Tex.
Disciplinary R. Prof. Conduct 1.01, cmt. 4 ("If the additional study and preparation
will result in unusual delay or expense to the client, the lawyer should not accept
employment except with the informed consent of the client."). Yet, his counsel were
not even aware of the defense Mr. Cade had available to him based on the facts. Hab.

32

R. App. 6785; Hab. R. App. 6795. Cf. Hinton u. Alabama, 571 U.S. 263, 274 (2014)
("An attorney's ignorance of a point of law that is fundamental to his case combined
with his failure to perform basic research on that point is a quintessential example
of unreasonable performance under Strickland."). Mr. Cade was not informed of, and
did not consent to, the incompetent representation.
B. Mr. Cade's Counsel did Not Investigate Expeditiously
Texas law "requires [habeas] counsel to investigate expeditiously the factual
and legal grounds for an application." Ex parte Mines, 26 S.W.3d 910, 912 (Tex. Crim.
App. 2000) (citing Tex. Code Crim. Proc. art. 11.071, § 3(a)). Although Mr. Schepers
and Ms. Heisey recognized from the outset that Mr. Cade was mentally ill and had a
history of physical head trauma, they did not investigate how his condition could support a defense. Hab. R. App. 6784-85; id. at 6794-95.
What stood in counsel's way was not a strategic decision, as that concept is
understood in the law of agency, but a wholesale policy and practice of the OCFW
director. Hab. R. App. 3793 (Heisey); id. at 6784 (Schepers). "This approach prevented
meaningful analysis of [trial] counsel's actual performance." Id. at 3793. Although
habeas counsel "believed at the time that Mr. Cade's mental illness played a role in
his criminal behavior," and habeas counsel believed trial counsel acted unreasonably
in presenting an insanity defense at trial, they could not secure funding to investigate
whether a defense was available. Id. at 6785.
At the time, the director of the OCFW adhered to an "arbitrary" policy, contrary to his client's interests, that prevented Mr. Cade's lawyers from conducting a
mental health investigation overwhelmingly indicated by the case and Mr. Cade's
33

background. 2nd Supp. Hab. App. 6917-20. The director also arbitrarily, as a matter
of policy, refused to invoke Mr. Cade's statutory right to seek funding for experts from
the courts. Id. at 6917. The director's policies were contrary to prevailing professional
norms, the facts presented to him, and case law. Id. at 6919-20. The director would
only authorize Mr. Cade's lawyers to retain a recently licensed neuropsychologist
with a bogus credential to spend one hour of reviewing another clinician's work. Id.
at 6918-19. The director also insisted Mr. Cade's lawyers file an expert affidavit that
the lawyers believed would harm Mr. Cade's interests solely because the office had
already paid for the expert's services. Id. at 6915-16. Taken together, the director's
policies and practices placed his professional interest in appearing to be a guard of
the public fisc ahead of Mr. Cade's interests. These policies and practices were contrary to Mr. Cade's interests and caused mental health evidence to be unavailable to
Mr. Cade.
The wholesale refusal to investigate whether Mr. Cade's mental health problems were reasonably investigated during trial was only one of OCFW's failures to
investigate. Due to insufficient staffing and high caseloads, OCFW "was not in a position" to conduct a professionally competent investigation of Mr. Cade's background.
Hab. R. App. 6784. See also id. at 6796-97.
C. Mr. Cade's Counsel Breached their Fiduciary Duties
Section 4(e) of Article 11.071 codifies the traditional rule that a client, as the
principle, is responsible for the errors of his lawyer/agent. See Trevino, 569 U.S. at
422. If an indigent, death-sentenced person does not expressly waive his right to representation in habeas proceedings, the appointment of counsel is mandatory. Tex.
34

Code Crim. Proc. art. 11.071, §§ 2(a) and (c). After that, Texas courts will only permit
a death-sentenced person to be heard through counsel, even when the appointed lawyer refuses to perform his statutory duties. See Medina, supra, 361 S.W.3d at 637.
Nevertheless, an attorney's "failure to file an application before the filing date applicable to the applicant under Subsection (a) or (b) constitutes a waiver of all grounds
for relief that were available to the applicant before the last date on which an application could be timely filed, except as provided by Section 4A." Tex. Code Crim. Proc.
art. 11.071, § 4(e).
However, this traditional rule gives way when the attorney violates her fiduciary duties and thereby severs the principallagent relationship. See Maples v. Thomas,
565 U.S. 266 (2012) (cited in Trevino, 569 U.S. at 422.). Where the attorney's actions
"severed the principal-agent relationship, an attorney no longer acts, or fails to act,
as the client's representative," and "[h]is acts or omissions therefore cannot fairly be
attributed to the client." Maples, 565 U.S. at 281 (internal quotation marks and citation omitted).
Under well-established principles of agency law, OCFW severed the principalagent relationship. The Maples Court found the habeas petitioner did not bear the
risk of his attorneys' failure to comply with an Alabama rule "requiring them to seek
the trial court's permission to withdraw." 565 U.S. at 284. Under agency law "'it is
ordinarily inferred that a principal does not intend an agent to do an illegal act.'"

35

Ibid. (quoting with omitted alteration 1 Restatement (Second) Agency § 111, Comment b). In at least two respects, OCFW violated the requirements of Texas law relevant to its appointment.
As explained supra, OCFW did not assign competent lawyers to Mr. Cade's
case, did not provide guidance and supervision from a qualified senior lawyer, did not
provide training, and burdened inexperienced counsel with caseloads and responsibilities that made it impossible for them to acquire competence in time for it to matter. OCFW also did not investigate expeditiously, or regarding Mr. Cade's evident
mental and physical problems, in any meaningful way.
As Ms. Heisey and Mr. Schepers state, Director Levenson refused to pursue
funding for experts and insisted on using expert reports even when doing so was contrary to the client's interests. Hab. R. App. 6794. Texas follows the traditional agency
rule that when an attorney withholds necessary information from the client or places
his own interests in conflict with his client's interests, he breaches his fiduciary duties. See Gofney v. Rabson, 56 S.W.3d 186, 193 & n.5 (Tex. App.--Houston 2001); see
also Restatement (Second) of Agency § 112, Cmt. b (1958) ("Agents are appointed to
forward the principal's interests, and when the agent ceases to do this and prefers his
own or another's interests, ordinarily the principal no longer would desire the agent
to act for him, and this the agent should realize."); Restatement (Second) of Agency §
387 (1958) ("Unless otherwise agreed, an agent is subject to a duty to his principal to
act solely for the benefit of the principal in all matters connected with his agency.").
OCFW breached its duty of candor to Mr. Cade by failing to inform him about

36

his attorneys' inexperience, lack of training, knowledge, skills, and inability to obtain
relevant competencies while carrying out their many duties. OCFW breached its duty
of loyalty to Mr. Cade by placing the agencies perceived interests in currying favor
and preserving the standing of its director over the interests of clients. See Restatement (Second) of Agency § 387 (1958) ("Unless otherwise agreed, an agent is subject
to a duty to his principal to act solely for the benefit of the principal in all matters
connected with his agency."); id. § 389 ("Unless otherwise agreed, an agent is subject
to a duty not to deal with his principal as an adverse party in a transaction connected
with his agency without the principal's knowledge.").
'Common sense dictates that a litigant cannot be held constructively responsible for the conduct of an attorney who is not operating as his agent in any meaningful sense of the word.'" Maples, 565 U.S. at 282 (quoting Holland v. Florida, 560 U.S.
631, 659 (2010) (Alito, J., concurring)). By failing to assign competent counsel, failing
to guide and supervise freshly (or not-yet) licensed lawyers, overburdening Mr. Cade's
inexperienced counsel, failing to appoint necessary experts to investigate, and insisting on using experts counsel believed were harmful, OCFW was not operating as Mr.
Cade's agent in any meaningful sense. Accordingly, the failures to present fully developed ineffective-assistance claims in Mr. Cade's initial application cannot be imputed to Mr. Cade. Those failures must be imputed to the State such that the factual
bases for those claims were not available to Mr. Cade through the exercise of due
diligence. See Tex. Code Crim. Proc. art. 11.071, § 5(a)(1).

37

IV.

Review of this Case will Streamline the Federal Habeas
Process, if Any is Necessary, and the Process in Other
Texas Cases and Similar Jurisdictions

The federal district court must address multiple layers of complex procedural
issues due to Texas's failure to meet its self-imposed responsibility of providing one
merits ruling on competently presented Sixth Amendment claims. State counsel's
failure to have Mr. Cade examined by mental health experts and their ignorance of
Texas's unconsciousness defense led to paltry claims being presented in state court,
and well-developed claims being presented in federal court. At a minimum, if the
State does not waive a procedural-bar defense—as it arguably did during the initial
round of pleading—the court will have to address Mr. Cade's contentions that Trevino
allows de novo review of the merits. Mr. Cade has presented extensive evidence that
may require live testimony.
It is possible, even likely, this Court's ruling in Shinn v. Ramirez will affect
how the federal court proceeds to the merits.
The district court has suggested it might deem Mr. Cade's claims to have been
adjudicated on the merits in initial habeas proceedings, such that Mr. Cade's new
evidence is barred by Pinholster, supra. App. 15a. That will require a decision about
whether the claims were "fundamentally altered," within the meaning of Vasquez v.
Hillery, 474 U.S. 254, 261 (1986). If the district court decides the claims were not
distinct, two things will happen: (1) Mr. Cade will assert the ineffectiveness of his
state habeas counsel should overcome the relitigation bar just as it overcomes a procedural bar as Justice Breyer observed in Gallow, supra. (2) Mr. Cade will appeal on

38

the question of whether his new claims are distinct from those presented initially in
state court.
Obviously, this Court has not resolved the issue in Gallow. The Vasquez standard is vague, and its application under Pinholster has prompted different opinions
from the Fifth Circuit.14 It is unnecessary to consider these issues in Mr. Cade's case.
Texas committed by statute to providing review of Sixth Amendment claims presented through competent capital habeas counsel. Requiring the State to keep that
commitment in this case properly apportions the burdens of ensuring the State observes the Constitutions requirements in its capital cases.
CONCLUSION
This Court should grant certiorari to resolve the important question presented.

Respectfully submitted,
Dated: August 30, 2021

JOSEPH J. PERKOVICH
COUNSEL OF RECORD
Philips Black, Inc.
PO Box 4544
New York, NY 10163
212-400-1660 (tel.)
j.perkovich@phillipsblack.org

Before Pinholster, the Fifth Circuit held that a federal claim was unexhausted if
new evidence placed it in a "significantly different and stronger" position than a
claim raised in state court. E.g., Kunkle v. Dretke, 352 F.3d 980, 988 (5th Cir. 2003);
Ries v. Quarterman, 522 F.3d 517, 525 (5th Cir. 2008) (by not mentioning allegedly
deficient omission of trial counsel in state court, petitioner failed to exhaust claim).
Since Pinholster, if the petitioner might be able to show cause for a procedural default, the Fifth Circuit has never found a claim to be unexhausted and therefore not
adjudicated. See Broadnax v. Lumpkin, 987 F.3d 400, 407-410 (5th Cir. 2021).
14

39

